<html>
<title> - VIETNAM HUMAN RIGHTS ACT OF 2013; CONCERNING THE ONGOING CONFLICT IN THE DEMOCRATIC REPUBLIC OF THE CONGO; EXPRESSING THE SENSE OF THE HOUSE THAT THE PRESIDENT SHOULD NOMINATE A QUALIFIED AND INDEPENDENT INDIVIDUAL FOR THE POSITION OF INSPECTOR GENERAL OF THE DEPARTMENT OF STATE AND BROADCASTING BOARD OF GOVERNORS; AND RECOGNIZING THE LONG- TERM PARTNERSHIP AND FRIENDSHIP BETWEEN THE UNITED STATES AND THE HASHEMITE KINGDOM OF JORDAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 VIETNAM HUMAN RIGHTS ACT OF 2013; CONCERNING THE ONGOING CONFLICT IN 
THE DEMOCRATIC REPUBLIC OF THE CONGO; EXPRESSING THE SENSE OF THE HOUSE 
    THAT THE PRESIDENT SHOULD NOMINATE A QUALIFIED AND INDEPENDENT 
 INDIVIDUAL FOR THE POSITION OF INSPECTOR GENERAL OF THE DEPARTMENT OF 
  STATE AND BROADCASTING BOARD OF GOVERNORS; AND RECOGNIZING THE LONG- 
   TERM PARTNERSHIP AND FRIENDSHIP BETWEEN THE UNITED STATES AND THE 
                      HASHEMITE KINGDOM OF JORDAN 

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                H.R. 1897, H. Res. 131, H. Res. 273 and 
                              H. Res. 222

                               __________

                             JUNE 27, 2013

                               __________

                           Serial No. 113-47

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

81-696 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1897, Vietnam Human Rights Act of 2013......................     2
H. Res. 131, Concerning the ongoing conflict in the Democratic 
  Republic of the Congo and the need for international efforts 
  toward long-term peace, stability, and observance of human 
  rights.........................................................    22
  Amendment in the nature of a substitute to H. Res. 131 offered 
    by the Honorable Karen Bass, a Representative in Congress 
    from the State of California.................................    29
H. Res. 273, Expressing the sense of the House of Representatives 
  that the President should nominate a qualified and independent 
  individual for the position of Inspector General of the 
  Department of State and Broadcasting Board of Governors to be 
  confirmed by the Senate without delay..........................    36
H. Res. 222, Recognizing the long-term partnership and friendship 
  between the United States and the Hashemite Kingdom of Jordan, 
  working together towards peace and security in the Middle East.    39
  Amendment in the nature of a substitute to H. Res. 222 offered 
    by the Honorable Gregory W. Meeks, a Representative in 
    Congress from the State of New York..........................    43

                                APPENDIX

Markup notice....................................................    60
Markup minutes...................................................    61
Markup summary...................................................    63
The Honorable Steve Stockman, a Representative in Congress from 
  the State of Texas: Prepared statement.........................    64
 VIETNAM HUMAN RIGHTS ACT OF 2013; CONCERNING THE ONGOING CONFLICT IN 
THE DEMOCRATIC REPUBLIC OF THE CONGO; EXPRESSING THE SENSE OF THE HOUSE 
    THAT THE PRESIDENT SHOULD NOMINATE A QUALIFIED AND INDEPENDENT 
 INDIVIDUAL FOR THE POSITION OF INSPECTOR GENERAL OF THE DEPARTMENT OF 
  STATE AND BROADCASTING BOARD OF GOVERNORS; AND RECOGNIZING THE LONG-
   TERM PARTNERSHIP AND FRIENDSHIP BETWEEN THE UNITED STATES AND THE 
                      HASHEMITE KINGDOM OF JORDAN

                              ----------                              


                        THURSDAY, JUNE 27, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet to mark up four bipartisan 
measures. As all members were notified earlier this week, to 
expedite our consideration of these non-controversial items, we 
will take up en bloc the text previously provided to your 
offices which all members have before them.
    And so without objection, the following items are 
considered as read and will be considered en bloc: H.R. 1897, 
the Vietnam Human Rights Act of 2013; House Resolution 131, 
concerning the ongoing conflict in the Democratic Republic of 
Congo; the bipartisan amendment in the nature of a substitute 
to House Resolution 131 offered by Congresswoman Bass; House 
Resolution 273, expressing the sense of the House that the 
President should nominate an Inspector General of the 
Department of State and Broadcasting Board of Governors; House 
Resolution 222, recognizing the long-term partnership and 
friendship between the United States and the Hashemite Kingdom 
of Jordan; and the bipartisan amendment in the nature of a 
substitute to House Resolution 222 offered by Mr. Meeks.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Royce. All members may have 5 days to submit 
statements for the record on any of today's measures.
    And after recognizing myself and the ranking member for 
brief opening remarks, I will be glad to recognize any 
committee members seeking recognition to speak on any of these 
measures.
    I am a strong supporter of H.R. 1897, the Vietnam Human 
Rights Act of 2013. Subcommittee Chairman Smith has worked hard 
on this bill. And over the years, this committee has held many 
hearings on Vietnam. If these hearings have had one consistent 
theme, it is the deterioration of human rights there in 
Vietnam. Government thugs brutalize peaceful dissidents. Anyone 
who dares to blog or publish material on democracy or anything 
critical of the Communist Party, faces years in jail and faces 
physical abuse. We need to send a message to the government, a 
message with teeth, and this bill does just that. And I 
strongly urge its passage.
    With regard to House Resolution 131, Congresswoman Bass has 
been dogged in bringing attention to the conflict in the 
Democratic Republic of Congo. And just last week, the State 
Department announced former Senator Russ Feingold as Special 
Envoy for the Great Lakes, in part, at her urging. Too many 
people have died. Too many people continue to suffer. The 
conflict in the DRC has lasted decades. Patience with this 
peacekeeping operation is wearing thin. We expect all regional 
leaders to respect and abide by the negotiated frameworks.
    House Resolution 273 expresses the sense of the House that 
the President should nominate a State Department Inspector 
General without delay. For months, on a bipartisan basis, the 
ranking member and I have called on the administration to fill 
the vacant Inspector General position for the Department of 
State and Broadcasting Board of Governors. We have written to 
the President. We have written to Secretary Kerry, stressing 
the importance of appointing a permanent Inspector General. I 
raised it at our hearing with the Secretary. It has been 2,000 
days since a permanent IG was last in place. It is time for 
this vacancy to be filled.
    IG's are the government's internal watchdogs. They police 
agencies for waste, for fraud, and for abuse. The resolution is 
non-partisan for the simple reason that the concept of a 
Presidentially-appointed, Senate-confirmed, permanent IG is 
fundamental to the very notion of good government.
    Lastly, House Resolution 222 recognizes the long-term 
partnership and friendship between the United States and the 
Kingdom of Jordan. The committee recently hosted the King of 
Jordan who continues to be a critical voice of moderation in 
the region. It is a key partner for peace. Today, Jordan has 
worked to address the needs of 550,000 Syrian refugees which 
have poured across its borders in the last 2 years. This has 
resulted, by the way, in a 10-percent population increase for 
Jordan. This is seriously straining Jordan. And Mr. Meeks' 
resolution notes the mutual benefits of a strong U.S.-Jordan 
relationship.
    I hope the committee will support of all of these measures. 
And I now recognize my good friend, the ranking member, for his 
remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
calling today's markup on these four bipartisan measures. This 
goes in line with the way you and I have both tried to run this 
committee in the most bipartisan way possible.
    I will just make some brief comments about each one of 
these. H.R. 1897, introduced by our colleague, Chris Smith, 
addresses the troubling human rights situation in Vietnam. 
Despite the country's increased economic freedom, religious and 
political freedoms for Vietnamese citizens remain severely 
limited. The bilateral relationship between Washington and 
Hanoi has improved since diplomatic relations were established 
over 15 years ago, but the lack of greater progress in 
protecting basic rights and civil liberties in Vietnam remains 
a barrier to closer cooperation in the future.
    H. Res. 131, introduced by Karen Bass, draws critical 
attention to the ongoing situation in Eastern Democratic 
Republic of the Congo. And I might say to the ranking member on 
the Africa Subcommittee, I appreciate her earnest involvement 
in all these very, very important issues. Violence continues to 
plague this region with thousands of people displaced, dying of 
disease, suffering from rampant sexual abuse, and living with 
constant uncertainty about their futures. This resolution calls 
for a comprehensive approach to the crisis that addresses the 
root causes of the conflict and it includes the active 
participation of all stakeholders, including the governments of 
countries in the Great Lakes region, the U.N. and the U.S.
    Both the U.N. and the State Department have appointed 
Special Envoys for the region and the U.N. recently deployed 
additional peacekeepers with a mandate to be more aggressive in 
responding to armed rebel movements. I hope that some of these 
actions will change the dynamic in Eastern Congo and allow the 
people of the region to finally live in peace.
    Mr. Chairman, I would especially like to thank you for your 
leadership in introducing H. Res. 273 which calls for the 
nomination of a permanent Inspector General of the State 
Department. I have been happy to work with you on this issue 
over the last several months and to be an original co-sponsor 
of this resolution. I know we share the view that having a 
permanent IG in place will help ensure independent and robust 
oversight at the State Department and the Broadcasting Board of 
Governors.
    I have now been informed that Secretary Kerry and President 
Obama identified a candidate for the State IG position back in 
April. The vetting process for that candidate is nearly 
complete and the Secretary expects the nomination to be 
finalized and made public in the very near future. I know we 
all look forward to that announcement and I am proud of the 
role that this committee has played in helping that get closer 
and closer.
    Finally, H. Res. 222 introduced by my friend from New York, 
Mr. Meeks, highlights the long-term strategic relationship 
between the United States and Jordan which has been one of the 
few pillars of stability and peace in the Middle East. We all 
had the pleasure of meeting with King Abdullah of Jordan. This 
committee did, just several weeks ago, and I know that we 
listened to him intently. He is always such a breath of fresh 
air, but a breath of realistic air and tells us what we should 
be doing. And as far as I am concerned he is right on the 
money. Regional events such as transition in Egypt and war in 
Syria have put unprecedented stress on the Jordanian economy 
and society. Jordan is currently overflowing with refugees and 
its already limited resources are strained.
    At this moment in time, Jordan needs support from the 
United States more than ever. This important resolution 
commends the people and Government of the Hashemite Kingdom of 
Jordan for their continued friendship with the United States 
and commitment to peace, security, and stability. It also 
praises the Government of Jordan for its response to the Syrian 
humanitarian crisis by hosting and caring for refugees fleeing 
violence instigated by the Assad regime in Syria.
    And finally, the resolution expresses a firm commitment to 
support the Government of Jordan as it faces regional 
challenges and works toward a more peaceful and stable Middle 
East.
    Mr. Chairman, I would like to thank you again for holding 
this markup. I look forward to supporting this package of 
measures. I yield back.
    Chairman Royce. Well, thank you. I want to thank Mr. Engel 
for his remarks and also his contributions to these measures 
here today. Do any members seek recognition to speak on the en 
block?
    Ms. Ros-Lehtinen. Yes, Mr. Chairman, I do.
    Chairman Royce. Congresswoman Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, and Mr. Chairman, 
first of all, thank you for your great leadership on this 
committee and thank you to Mr. Engel for forging this warm 
working relationship.
    I am pleased to support these four bipartisan bills that 
are being marked up and considered en bloc by the committee 
today. I commend my good friend, Mr. Smith, for his unending 
support for human rights across the globe. I fully support his 
bill, H.R. 1897, the Vietnam Human Rights Act, a bill that 
promotes freedom and democracy in Vietnam. The United States is 
the world's leading expert when it comes to living up to these 
two ideals, yet, too often we find ourselves sending money to 
governments that deny their citizens even the most basic human 
rights without leveraging that assistance to push for change to 
the status quo.
    One of the most important provisions of his bill would 
condition aid to Vietnam unless it meets certain specific 
requirements to improve its respect for human rights. This is 
an important way by which the United States can push for real 
reforms within countries like Vietnam. And I fully support this 
measure.
    We also have before us another important resolution on 
human rights, the Humanitarian and Military Crisis in the 
Democratic Republic of Congo. It has been ongoing for far too 
long and has claimed the lives of over 5 million people while 
millions more have been displaced. The human rights violations 
that have occurred are unspeakable. I commend Ms. Bass and Mr. 
Smith for their Resolution 131 which is a step in the right 
direction of helping the people of the DRC by addressing 
several of the issues that must be resolved in order to help 
end this crisis. And I fully support this measure.
    And we also have a resolution before us, Mr. Chairman, 
which you have authored with our friend, Ranking Member Engel, 
which urges the President to nominate a qualified and 
independent individual to fill the Inspector General slot at 
the State Department. I pressed this issue when I was chair, 
held a hearing focused directly on the need for the State 
Department to have an Inspector General that challenges the 
management of the State Department to function with 
transparency and accountability. I have been concerned as many 
of us here have been that this important watchdog position has 
been vacant for 5 years now and it is imperative that the 
President fill this slot post haste.
    And finally, we have a resolution recognizing the 
partnership and friendship of the Hashemite Kingdom of Jordan. 
Jordan is a great friend and an important ally to the United 
States. Our bilateral relationship is stronger now than it has 
ever been, but with the ongoing crisis in Syria and Jordan 
having to bear such a heavy burden as it takes hundreds of 
thousands of those who have fled Syria to seek refuse in a 
safer place, it is vital that we reaffirm our support for 
Jordan and we must do what we can do to help Jordan as it copes 
with the struggles that it is facing today. This resolution is 
an important way to announce to Jordan and to the world that we 
stand firmly and resolutely with our ally, the Hashemite 
Kingdom of Jordan. I fully support this and all of the measures 
before us today.
    Thank you, Mr. Chairman, again for your leadership.
    Chairman Royce. Thank you. Congresswoman Bass is 
recognized.
    Ms. Bass. Thank you, Mr. Chair. I want to thank you, one, 
for all of the work that has happened on the committee so far 
and I wanted to speak in support of all four resolutions, but 
specifically H.R. 131. I wanted to thank the ranking member, 
and also Chairman Smith, for his long-standing leadership on 
this issue.
    All of us know that the crisis in the Congo has gone 
unresolved for so many years. We have seen numerous 
declarations and agreements for peace, yet too little has been 
done to prevent the death of millions and the displacement of 
those forced to flee their homes and livelihood. I am pleased 
that this bipartisan bill has many, many co-sponsors who also 
registered their strong support to end the status quo. Over the 
last several months, I am pleased to report that we have seen 
the United Nations appoint a Special Envoy to the DRC, former 
Irish President Mary Robinson. And last week, Secretary Kerry 
appointed former Senator Russ Feingold as the U.N. Special 
Envoy to the DRC. And that is one of the things that the 
resolution was calling for was the appointment of that Special 
Envoy.
    I had the opportunity to speak to Senator Feingold 
yesterday, and I am sure that the chair and ranking member have 
also, and I think it might be a great idea down the line after 
he has had a chance to settle in, if we would ask him to come 
and give us a report to the committee.
    In February, the Congolese, joined by other Great Lakes 
nations, as well as the U.N. and African Union, committed to an 
agreement that with the strong support from the international 
community, hopefully will finally lead to peace and stability. 
This committee has the opportunity and responsibility to send a 
clear message that the ongoing crisis in the DRC has not been 
forgotten in this chamber or in the U.S. Congress. It is time 
for the crisis in the DRC to come to an end and I really 
appreciate my colleagues' support in our efforts to end this 
tragedy. I yield back my time.
    Chairman Royce. Thank you, Congresswoman Bass, and thank 
you for your efforts on this issue. And I do think you are 
right. I think we need to hear from Special Envoy Feingold. So 
we will ask him to meet with the committee and have a joint 
meeting with him. Thank you.
    Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Mr. Chairman. And I, too, want to 
speak out for all four of the bills that are en bloc. I want to 
thank, of course, Chairman Smith, for his hard work and 
continuing to fight every day to try to make sure that human 
rights are seen all over the world. I think that really stands 
out very clearly that we are all related. We are all human. And 
you want to make sure that we all receive the same. And I want 
to thank you for your hard work on this.
    And of course, my colleague, Karen Bass, for all that she 
is doing. Just whispering here with Mr. Connolly who is saying 
how very seriously that Ms. Bass has taken the responsibility 
as the ranking member on the Africa Subcommittee and making a 
real difference in doing it. So thank you, on your bill.
    And of course, Mr. Chairman, what you and Ranking Member 
Engel are doing, not only in this bill, but the way that you 
have been conducting this committee in a bipartisan way and 
everyone having an opportunity to make real contributions and 
to feel that you really belong in being a part of this in a 
bipartisan way, you are really setting an example. And the way 
that you two work with one another is tremendously important. 
So I want to thank you in that regard.
    And I want to just make my references specifically to H. 
Res. 222 and thank the committee and I appreciate the support 
of over 35 colleagues as co-signers of this resolution and of 
course, including you, Mr. Chairman, and Ranking Member Engel, 
and 16 members of the House Foreign Affairs Committee. This 
resolution recognizes the long-term partnership and friendship 
between the United States and the Hashemite Kingdom of Jordan, 
working together toward peace and security in the Middle East. 
This bipartisan resolution comes at a crucial time and a 
critical time of unrest and conflict in the region. This 
resolution is particularly timely today as Secretary of State 
John Kerry arrives in Oman to begin a new round of peace talks.
    Jordan plays a critical role as a mediator of peace between 
the Israelis and the Palestinians. Jordan's normalized 
relations and historic 1994 peace treaty with Israel greatly 
contributes to stability in the region. And Jordan is an 
advocate for progress in the Middle East peace process and 
often offers to host peace negotiations as a mediator. The 
United States has a close relationship with Jordan spanning 
over 60 years and we work side by side with Jordanians in 
multiple areas, from security cooperation and counterterrorism 
to economic development and humanitarian assistance. This 
resolution is not simply recognition of that friendship, it is 
a reaffirmation of the importance of the United States and 
Jordan's partnership as a key element of U.S. strategic 
interests in the Middle East.
    The horrific violence in neighboring Syria is threatening 
to destabilize an entire region. Jordan has worked closely with 
the United Nations' High Commissioner for Refugees to host an 
increasing number of refugees. According to the UNHCR, Jordan 
is currently hosting approximately 500,000 refugees and the 
number increases with each passing day. The number of refugees 
in Jordan accounts for almost 8 percent of the Jordanian 
population. This is a heavy burden for Jordan that cannot be 
underestimated. And I am pleased to recognize the friendship 
between the American people and the people of Jordan working 
toward peace and security in the Middle East.
    Thank you, Mr. Chairman, I yield back.
    Mr. Connolly. Would my colleague yield?
    Mr. Meeks. I yield.
    Mr. Connolly. I thank my colleague for yielding. I just 
want to add my voice to his and my other colleagues in 
supporting the legislation before us today. I am particularly 
proud of being an original co-sponsor of the Vietnam Human 
Rights Act where human rights violations continue. And I am 
pleased to support the legislation in front of us. And I want 
to thank the chairman and ranking member and echo your 
sentiments about the bipartisan manner in which they have 
conducted the business of this committee. And with that, I 
yield back to my colleague.
    Mr. Meeks. I yield back my time.
    Chairman Royce. Thank you, Mr. Connolly, and Mr. Meeks. We 
go to Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. I, too, want 
to thank you and the ranking member, Eliot Engel, for the way 
you have conducted this committee and working in a very robust, 
bipartisan manner. And I support all four of the pieces of 
legislation that are under consideration. I want to thank you 
especially for bringing the Vietnam Human Rights Act before the 
committee. Previously we brought this to the floor of the House 
and it passed overwhelmingly. There were people who said things 
were improving in Vietnam, but of course, the record, as 
discussed at a hearing on June 4, clearly shows that there has 
been significant deterioration. Human Rights Watch testified on 
June 4th that in the first few months of 2013, more people have 
been convicted in political trials as in the whole of last 
year, in all of 2012. They pointed out how the trendlines have 
been worsening and that the governance by Vietnam is 
characterized by brutality and systematic suppression of 
freedom of expression, association, and peaceful assembly. We 
heard at our hearing from a Vietnamese woman who was forced to 
work in a brothel in Russia with 14 other Vietnamese women. 
Last year, we heard at another hearing about a group of 
Vietnamese workers who were trafficked to Jordan. In each of 
these cases, and they are only the tip of the iceberg, 
officials from the Vietnamese Government not only failed to 
assist the victims, but instead were directly complicit in this 
egregious exploitation of women.
    We also heard from a number of people, Christians and Khmer 
Krom Buddhist monks who testified before the committee and told 
how each of their belief groups were being systematically 
harassed, imprisoned, and even forced to renounce their faith, 
particularly the Montagnards.
    It is imperative that the United States Government send an 
unequivocal message to the Vietnamese regime that it must end 
its escalating human rights abuses of its own citizens. This 
legislation seeks to do that by setting out very clear and very 
attainable benchmarks and calls for substantial progress in 
respecting freedom of religion, releasing all religious 
prisoners, respecting the rights of freedom of expression, 
assembly, and association, and releasing all political 
prisoners, independent journalists, and labor activists, 
repealing and revising laws that criminalize peaceful dissent, 
independent media, unsanctioned religious activity, so-called 
unsanctioned, and nonviolent demonstrations in accordance with 
human rights standards, and of course, respecting the human 
rights of all ethnic groups and taking all appropriate steps 
including prosecution of government officials and government 
complicity in human trafficking.
    I would note parenthetically the first case that was 
brought against Vietnamese officials pursuant to legislation 
that I authored in 2000 known as the Trafficking Victims 
Protection Act was against Daewoosa which had a sweatshop in 
American Samoa and the Vietnamese Government to this day has 
not honored the findings of that court which held very high 
officials to account. As a matter of fact, they were promoted 
in Vietnam to higher positions. It is serious human rights 
situation and in a bipartisan way, we are trying to address it.
    I also want to thank you for bringing to the committee 
Ranking Member Karen Bass' resolution, H. Res. 131, as amended 
by the amendment in the nature of a substitute. We have had 
several hearings on the Democratic Republic of the Congo. I, 
like other members, have been there. I have been to Goma and 
seen how horrific the abuse there is and this calls upon not 
only the Democratic Republic of the Congo, but other border 
states to do far more than they have done to end the atrocities 
and the violence there. It also points out that the Atrocities 
Prevention Board, created in 2011, to coordinate U.S. policy to 
prevent mass atrocities and serious human rights violations 
should work with regional and international partners to help 
bring the tragedy in Eastern Congo to a definitive end. The 
Atrocities Prevention Board is directed to address, prevent, 
and ensure accountability for serious violations of 
humanitarian law and we are calling on them to do far more than 
we think that they have done so far. So very fine resolution 
and again, in a bipartisan way, I am glad to join Karen Bass as 
a co-sponsor of her bill.
    Chairman Royce. Mr. Schneider is recognized.
    Mr. Schneider. Thank you, Mr. Chairman, and let me also say 
thank you to the chairman and the ranking member for the 
leadership on this committee and the bipartisan way we approach 
all of the issues we face. I am proud to fully support all four 
resolutions and I am grateful as well for the leadership of 
many on this committee in speaking out and acting on human 
rights on oversight and let me focus, in particular, on Jordan.
    H. Res. 222, recognizing Hashemite Kingdom of Jordan for 
its long partnership with the United States, its commitment to 
peace and security in the region, its leadership and promotion 
of peace with its neighbor, Israel<greek-l>i deg., and in 
particular at this moment, its contribution toward dealing with 
both political and humanitarian crisis in Syria is crucial. 
Jordan has been a U.S. ally for over six decades. Nearly two 
decades ago, Jordan signed the historic peace treaty with 
Israel and in a sense under the leadership of King Abdullah II, 
actively and constructively sought progress toward peace, 
between Israelis and Palestinians. Jordan has been a reliable 
partner with U.S. providing intelligence and resources in the 
global war on terror, as well as security and humanitarian 
support of the United States' efforts in Iraq and Afghanistan.
    Of particular note, Jordan has been a refuge for people 
seeking security and sanctuary from sectarian violence in Iraq, 
Libya, and now most urgently, Syria. Already over 500,000 
people have sought refuge in Jordan from the atrocities of the 
Al-Assad regime and some estimate that number may double before 
the end of the year.
    Jordan presently faces significant challenges in dealing 
with this massive refugee crisis and its associated economic 
burden. The U.S. can and must do more to assist the people in 
the Government of Jordan as the conflict in Syria continues to 
threaten the stability of the entire region.
    We must work in partnership with our allies in the region, 
including Jordan, to ensure the crisis in Syria does not break 
out into a broader regional disaster. The resolution we are 
considering today accurately identifies the tremendous 
assistance Jordan provides throughout the region and recognizes 
our partnership in promoting both security and peace. I yield 
back.
    Chairman Royce. Mr. Bera, do you seek recognition? Before 
we go to you, I think Mr. Rohrabacher just indicated he would 
like to seek recognition.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
would like to congratulate you on doing the drudge work in 
making sure that legislation gets put together and brought 
before us and the compromises and the wordings and all of the 
things that go into your job, you are doing a good job for us 
and especially on important issues like we are discussing today 
and they are important. We are talking about human rights in 
Vietnam and in Africa and acknowledging Jordan as a very 
important player in the Middle East and an important friend of 
the United States.
    I would like to call attention specifically to the 
legislation and add my name to it, if we could, that references 
human rights in Vietnam. The people of Vietnam deserve special 
attention. They deserve the special attention that this 
legislation gives them. We encouraged the Vietnamese people 
during the height of the Cold War to resist the expansion of 
communism. They did so. They did so bravely, courageously, and 
unfortunately, their efforts were futile. We also, of course, 
lost 50,000 American lives and hundreds of thousands of wounded 
during that conflict in the 1960s. Let us remember, however, 
that the Vietnamese paid a much heavier price for that conflict 
which was indeed one of the epic conflicts of the Cold War. And 
we, of course, left the Vietnamese to fight on by themselves. 
And a few years after we left, not long after we left, they 
were, of course, overrun when this Congress decided to cut all 
funds off to the Vietnamese Government that we left behind. We 
cut off all funds for any military support for a conflict that 
we had convinced them to get into in the first place.
    With this history, Mr. Chairman, I think it behooves us to 
try our best to at least be on the record and to pressure the 
Government of Vietnam today to respect the human rights of its 
people to the degree that a government such as that government 
exists. It is hard to tell whether we can call them a Communist 
government as it is hard to tell whether or not the government 
in China is a Communist government, but we do know that the 
Government of China is the world's worst human rights abuser. 
And we do know that there are major human rights abuses going 
on in Vietnam.
    With this special relationship that we paid for and they 
paid for in blood, we do need to go on record strongly when 
their rights are being violated. One of the groups of people 
here being mentioned are the Montagnards. And I will have to 
note that back in 1967 I spent some time in the Central 
Highlands with the Montagnard villagers and found them to be 
courageous and I will never forget. They give these little 
bracelets out that go around your arm that means you are a 
member of the tribe or their clan, I guess, and I remember when 
they gave me one and years later I determined that the war in 
Vietnam was not in our interest to stay and lose so many of our 
young lives. It was so divisive for our people.
    And I remember the day I decided that I was in the shower 
actually taking a shower and that bracelet broke at exactly 
that moment. And I looked down and that bracelet was in the 
drain. I looked down and I said, ``I wonder what happened to 
those Montagnard people who trusted me and gave me that 
bracelet. Maybe they are going down the drain, too.'' Well, 
today, and for the last few years, those of us who have tried 
to remain true to the principals of human rights that I think 
our country stands for, know that we need to pay, we have a 
debt to pay to those people to pay special attention to those 
human rights that were violated and are being violated today by 
that vicious government that still controls and holds power, 
although how they can claim they gave so many lives to create 
this Marxist dream and there is no way they can claim that 
their economic system as in China has anything to do with Karl 
Marx because it is now an ultra-profiteering capitalist system. 
But it is more like a fascist system we should say.
    So thank you very much, Mr. Chairman, for again all of the 
legislation that you have worked through, especially this 
legislation that gives a very special attention to the 
Vietnamese people to whom we owe a great debt. Thank you.
    Chairman Royce. Thank you, Mr. Rohrabacher. We will go now 
to Dr. Bera, but before I do, I will remind the members we have 
competing markups and members may submit statements for the 
record and after we recognize our next few speakers, we are 
going to go to a voice vote as soon as all members seeking 
recognition, we have complied with that request. Dr. Bera, go 
ahead.
    Mr. Bera. And I will keep my comments brief. First off, I 
will speak in favor of all four of the resolutions. I also want 
to commend the chairman and ranking member for the nature of 
this committee. Things in this town don't always work very 
well, but this committee can be an example of what does work 
well by working together.
    I want to speak specifically to H. Res. 273, particularly 
in the timeliness of yesterday's hearing and the importance of 
getting the Broadcasting Board of Governors working. Anything 
we can do to move this process forward, it was disconcerting 
yesterday to hear how dysfunctional the Board is and that is an 
important piece of our strategic dialogue. It is an important 
piece of our diplomacy and again, I speak in support of helping 
us move this process forward. So with that, I will yield back. 
Thank you.
    Chairman Royce. Dr. Bera, thank you. We look forward to 
working with you on that question of reconstituting the 
Broadcasting Board of Governors so that it operates in an 
effective way.
    I think Mr. Lowenthal was seeking recognition. Mr. 
Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair. I support all four 
measures before us today, but I am proud to be an original co-
sponsor of H.R. 1897, the Vietnam Human Rights Act of 2013, an 
act to promote freedom and democracy in Vietnam. First, I would 
like to thank Congressman Smith for introducing this important 
legislation and for you, Mr. Chair, for bringing it to the full 
committee and I would also like to thank you, Mr. Chair, for 
conducting this committee in a bipartisan manner.
    Mr. Chairman, H.R. 1897, the Vietnam Human Rights Act could 
not have come at a more critical time for the United States-
Vietnam relations. As we all know, the Government of the 
Socialist Republic of Vietnam has benefitted substantially 
since the time that it normalized relations with the United 
States. Through its partnership with the United States, the 
Government of Vietnam has gained access to the WTO, has 
received permanent normal trade status with our country and has 
expanded into American markets which is now worth approximately 
$25 billion a year.
    Now the Government of Vietnam wants to be part of the 
Trans-Pacific Partnership without any commitment to respecting 
human rights, religious freedom, and political rights of its 
people. Despite the fact that Congress has passed numerous 
resolutions in the past calling on the United States Government 
to pressure Vietnam into improving its human rights record, we 
seem to be getting nowhere with progress on the ground. On the 
contrary, the Government of Vietnam has stepped its crackdown 
on activists, dissidents, and opposition voices in an 
unprecedented scale. This is due to the fact that increasingly 
intellectuals, former officials, and those who have worked for 
the ruling authorities are speaking out against the 
authoritarian regime and voicing their opinions for justice and 
for human rights.
    As reported by the Human Rights Watch on June 19th, blogger 
Truong Duy Nhat, blogger Pham Viet Dao, who is a former 
government official, and internet activist Nguyen Chi Duc, a 
former member of the Communist Party, they have been recently 
arrested by the Ministry of Public Security just for exercising 
their rights. Moreover, bloggers such as Truong Duy Nhat, Pham 
Viet Dao have both been critical of the Vietnamese Prime 
Minister Nguyen Tan Dung and Vietnamese Communist Party 
Secretary General Nguyen Phu Trong, blaming them for 
mishandling the economy and calling for their resignation. It 
just goes on and on, Mr. Chair. Human rights abuses and 
crackdown on political dissents are on the rise in Vietnam.
    While these activists represent the latest wave of 
crackdown on dissidents by the government, we should not also 
forget that many prisoners of conscience are still serving 
their long and unjust sentences from years ago and they remain 
today in jail. It is with this heavy background of human rights 
abuses that I implore this Congress to pass the Vietnam Human 
Rights Act of 2013 to send a strong signal to the Government of 
Vietnam to stand up for justice and human dignity.
    Just recently on June 1st, I, along with Chairman Royce and 
Congresswomen Loretta Sanchez and others, hosted a community 
town hall for the United States Ambassador to Vietnam, David 
Shear, in my district which is the heart of Little Saigon in 
Orange County which is one of the largest concentration of 
Vietnamese outside of Vietnam. The overwhelming number of 
Vietnamese Americans and local, elected officials who attended 
the event called on Congress to pass the Vietnam Human Rights 
Act. Today, I am asking for the same.
    Freedom, democracy, and human rights must be a part of any 
future partnership with Vietnam. Let us support the people of 
Vietnam by voting yes on H.R. 1897, the Vietnam Human Rights 
Act of 2013. Thank you, Mr. Chair, and I yield back my time.
    Chairman Royce. Thank you, Mr. Lowenthal. Do any other 
members seek recognition before we vote?
    Hearing no further requests for recognition, the question 
occurs on agreeing to the items being considered en bloc.
    All those in favor say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it and the items 
considered en bloc are agreed to. Without objection, the 
measures agreed to en bloc: H.R. 1897; House Resolution 131, as 
amended; House Resolution 273; and House Resolution 222, as 
amended, are ordered favorably reported to the House and staff 
are directed to make technical and conforming changes. And I 
want to thank Ranking Member Engel and all of our colleagues 
for their contributions and assistance with today's markup. The 
committee is adjourned.
    [Whereupon, at 10:49 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


             Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
